                                          Department of Energy
                                              Washington, DC 20585

ES                                            January 10, 2003



     MEMORANDUM FOR THE DIRECTOR, OFFICE OF MANAGEMENT, BUDGET
                        EV LUATION/CHIEF FINANCIAL OFFICER

     FROM:                  /       J    ti    .Maharay
                       FR           Assistant Inspector General for Audit Services
                                S   Office of Inspector General

     SUBJECT:                       Federal Managers' Financial Integrity Act Audit Report
                                    Audit Report No.: OAS-L-03-05


     We reviewed selected aspects of the Department of Energy's implementation of the
     Federal Managers' Financial Integrity Act (FMFIA) of 1982. The objective of the
     FMFIA, and the Department's Management Control Program, is to ensure that controls
     are working effectively and that programs and administrative functions are performed in
     an economic and efficient manner consistent with applicable laws.

     In addition to our audit work in this area, we also recently issued our annual report on
     Management Challenges at the Departmentof Energy (IG-0580), which details issues
     that we consider the most significant management and performance challenges facing the
     Department. Our report, published on December 31, 2002, includes an assessment of
     progress in addressing each of the challenge areas.

     Our review was conducted to assist you in determining whether Departmental elements
     appropriately disclosed previously detected waste or other problems and whether the
     Fiscal Year (FY) 2002 evaluation of management controls was carried out in a reasonable
     and prudent manner. The appendix to this report details the scope and methodology used
     to conduct our audit.

     RESULTS OF AUDIT

 Based on our limited review, we determined that program elements generally conformed
 with requirements of the Department's management control program. However, our
 review identified several procedural problems regarding submission of assurance
 memoranda. As in previous years, a number of Headquarters and field assurance
 memoranda were not submitted on time. We also observed that the National Nuclear
 Security Administration's FY 2002 assurance memorandum did not include detailed
 action plans for identified reportable problems. The lack of timely reporting and
 corrective action plans could affect the Secretary's ability to report the status of the
 Department's management control program to the President and to Congress.




                                             Printed with soy ink on recycled paper
                                           -2-


In making our assessment relating to these and other matters, we coordinated closely with
the Office of Program Liaison and Financial Analysis.

Attachment

cc:    Chief of Staff
       Director, Policy and Internal Controls Management, NA-66
                                                                               Attachment


SCOPE AND METHODOLOGY

The Department's evaluation of its control systems was examined for compliance
with the FMFIA, the General Accounting Office's "Standards for Internal Controls in the
Federal Government," Office of Management and Budget Circulars A-123 and A-127,
and Department of Energy Order 413.1A, "Management Control Program." The results
of the Department's evaluations of control systems will be included in the Performance
and Accountability Report that is due no later than January 31, 2003. This report
provides critical financial and program performance information in a single report as
authorized by the Reports Consolidation Act of 2000 and addresses a number of
significant issues faced by the Department.

Our review was made in accordance with generally accepted Government auditing
standards, which included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We assessed the Draft Performance and
Accountability Report, as it relates to FMFIA, along with supporting documentation filed
by selected Departmental organizations to determine whether the results of their
evaluations were accurately reported. Also, we performed work to determine whether the
Department established corrective actions for reportable problems identified during its
FY 2002 FMFIA reporting process.
NT O,

                                   Department of Energy
                                       Washington, DC 20585
            E                          January 10, 2003



    MEMORANDUM FOR THE DIRECTOR, OFFICE OF MANAGEMENT, BUDGET
                       EV LUATION/CHIEF FINANCIAL OFFICER

    FROM:                /     fS s   Maharay
                       FO.Assistant Inspector General for Audit Services
                        S Office of Inspector General

    SUBJECT:                 Federal Managers' Financial Integrity Act Audit Report
                             Audit Report No.: OAS-L-03-05


   We reviewed selected aspects of the Department of Energy's implementation of the
   Federal Managers' Financial Integrity Act (FMFIA) of 1982. The objective of the
   FMFIA, and the Department's Management Control Program, is to ensure that controls
   are working effectively and that programs and administrative functions are performed in
   an economic and efficient manner consistent with applicable laws.

   In addition to our audit work in this area, we also recently issued our annual report on
   Management Challenges at the Department of Energy (IG-0580), which details issues
   that we consider the most significant management and performance challenges facing the
   Department. Our report, published on December 31, 2002, includes an assessment of
   progress in addressing each of the challenge areas.

   Our review was conducted to assist you in determining whether Departmental elements
   appropriately disclosed previously detected waste or other problems and whether the
   Fiscal Year (FY) 2002 evaluation of management controls was carried out in a reasonable
   and prudent manner. The appendix to this report details the scope and methodology used
   to conduct our audit.

   RESULTS OF AUDIT

   Based on our limited review, we determined that program elements generally conformed
   with requirements of the Department's management control program. However, our
   review identified several procedural problems regarding submission of assurance
   memoranda. As in previous years, a number of Headquarters and field assurance
   memoranda were not submitted on time. We also observed that the National Nuclear
   Security Administration's FY 2002 assurance memorandum did not include detailed
   action plans for identified reportable problems. The lack of timely reporting and
   corrective action plans could affect the Secretary's ability to report the status of the
   Department's management control program to the President and to Congress.



                                  @    Printed with soy ink on recycled paper
                                           -2-


In making our assessment relating to these and other matters, we coordinated closely with
the Office of Program Liaison and Financial Analysis.

Attachment

cc:    Chief of Staff
       Director, Policy and Internal Controls Management, NA-66
                                                                               Attachment


SCOPE AND METHODOLOGY

The Department's evaluation of its control systems was examined for compliance
with the FMFIA, the General Accounting Office's "Standards for Internal Controls in the
Federal Government," Office of Management and Budget Circulars A-123 and A-127,
and Department of Energy Order 413.1A, "Management Control Program." The results
of the Department's evaluations of control systems will be included in the Performance
and Accountability Report that is due no later than January 31, 2003. This report
provides critical financial and program performance information in a single report as
authorized by the Reports Consolidation Act of 2000 and addresses a number of
significant issues faced by the Department.

Our review was made in accordance with generally accepted Government auditing
standards, which included, tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We assessed the Draft Performance and
Accountability Report, as it relates to FMFIA, along with supporting documentation filed
by selected Departmental organizations to determine whether the results of their
evaluations were accurately reported. Also, we performed work to determine whether the
Department established corrective actions for reportable problems identified during its
FY 2002 FMFIA reporting process.
 Ol/lf/03           09:34 FAX 301 903   4656               CAPITAL REGION                  FORS FIVEA           i002


DOE F 1325.8
  (8-89)
EFG (07-90)

United States Government                                                                       Department of Energy

Memorandum
            DATE:     JAN 16 2003
     REPLY TO:      IG-34 (A03FF007)

      SUBJECT:      Final Report Package for "Federal Managers' Financial Integrity Act Audit Report"
                    Audit Report No.: OAS-L-03-05

               TO: Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services


                       Attached is the required final report package on the subject audit. The pertinent details are:
                        1.     Actual Staff days:     69
                               Actual Elapsed days: 106
                       2. Names of OIG and/or contractor audit staff:
                              Assistant Director:     George W. Collard
                              Team Leader:            Ronald N. Hancock
                              Auditor-in-Charge:      Richard L. Marvin
                              Audit Staff:            John T. Moynihan
                                                      Sally J. Leiser
                       3. Coordination with Investigations and Inspections:
                              Investigations:        Brenda Froberg/John Hartman - November 20, 2002
                              Inspections:           Henry Minner/Joh VandeSand - January 9, 2003



                                                               Rickey   . Hass, Director
                                                               Science, Energy, Technology,
                                                                and Financial Audits
                                                               Office of Audit Services
                                                               Office of Inspector General
01/16/03   09:34 FAX 301 903 4656           CAPITAL REGION   -   FORS FIVEA   Z003




              Attachments:
              1. Final Report (3)
              2. Monetary Impact Report
              3. Audit Project Summary Report
              4. Audit Database Information Sheet
01/16/03    09:34 FAX 301 903 4656                            CAPITAL REGION                           -   FORS FIVEA                        @.004




                                                                                                                           Attachment 2
                               MONETARY IMPACT OF REPORT NO.: OAS-L-03-L05


         1. Title of Audit:      "Federal Managers' Financial Integrity Act Audit Report"

         2. Division:            Science. Energy. Technology, and Financial Audits

         3. Project No.:        A03FF007

         4. Type of Audit:

                  Financial:          X                                   Performance:
                    Financial Statement                                          Economy and Efficiency
                    Financial Related                 X                          Program Results
                  Other (specify type):

   5.

                                                                                                                          MGT.          POTENTIAL
            FINDING                        BETTER USED                               QUESTIONED COSTS                   POSITION         BUDGET
                                                                                                                                         IMPACT
                                                   Recumnri
   (A)              (B)           (C)      (D)        (B)        (F)          (0)            (H)             (I)           ()                 (K)
                   Title         One      Amount      No.       Total      Questioned    Unsupported        Total       C=Concur    .        Y=Yes
                                 Time      Per        Yrs.     Amount       Portion        Portion                      N=Noncon             N=No
                                           Year
                                                                                                                        U=Undec
         (NONE)                 N/A       N/A        N/A       N/A         N/A          N/A                N/A            N/A                 N/A




  TOTALS--ALL FINDINGS          $ 0     1SO
                                          $                    SO-   -SO-;0 $0                                      I             i
                                                                                                                                  ,•    •i



   6. Remarks: There is no current monetary impact or potential future savings.

   7. Contractor:   None                                   10. Approvals:
   8. Contract No.:                                              Division Director
                                                                      & Date                                        0I       1P,3
   9. Task Order No.:                                                  Technical Advisor &
                                                                      Date
01/16/03       09:35 FAX 301 903 4656                           CAPITAL REGION                      -   FORS FIVEA        Q005
                                               Office of the Inspector General.(OIG)
                                         Audit Project Office Summary (APS)
                                                                                                                        Attachment3
Report run on:                   January 14, 2003 3:18 PM                                                                 Page 1


  Audit#: A03FF007           Ofc:        FFA    Title: FMFIA FY 2002

                                                              ****    Milestones ****
                                           ---------..-              - PPlanned ----------------               Actual
                                              Profile                End of Survey         Revised
   Entrance Conference:                    01-OCT-02                  26-SEP-02         26-SEP-02          26!-SEP-02
   Survey Completed:
  Field Work Complete:
  Draft Report Issued:
  Exit Conference:
  Completed with Report:                   30-SEP-03                                    06-DEC-02          10-JAN-03    (R)
  --------     Elapsed Days                       364                                          66             ..106
  ----------     Staff Days:                           0                       0                                 69
  Date Suspended:                            Date Terminated:
  Date Reactivated:                          Date Cancelled:
  DaysSuspended(Cur/Tot):          0 (      )Report Number:    OAS-L-03-05
  Rpt Title:       FEDERAL MANAGERS' FINANCIAL INTEGRITY ACT AUDIT REPORT

                                               ****    Audit Codes and Personnel            ****

  Aud Type:          Not Found
  Category: CR       Not Found                                              AD:      390    HANCOCK
  DOE-Org:           Not Found                                              AIC:     630    MARVIN
  Maj Iss: 103       PERFORMANCE MANAGEME                                   HDQ-Mon: 421    SCHULMAN
  Site:         MSA MULTI-SITE AUDIT                                        ARM:     459    COLLARD

                                                      '****Task Information          ****

        Task No:
        Task Order Dt:                                        CO Tech. Rep:
        Orig Auth Hrs:                                        Orig Auth Costs:
        Current Auth:                                         Current Auth Cost:
        Tot Actl IPR Hr:                                      Tot Actl Cost:

                                                       ****    Time Charges ****

                  Emp/Cont Name                 Numdays                 Last Date
                  SMOAK,    S                          .4               11-JAN-03
                  MOYNIHAN,          J            16.4                  11-JAN-03
                  HANCOCK,       R                21.8                  11-JAN-03
                  MARVIN,    R                    30.8                  11-JAN-03
                   Total:                         69.4
01/16/03      09:35 FAX 301 903 4656                   CAPITAL REGION              - FORS FIVEA        0006
                                          Office of the Inspector General    (OIG)
                                    Audit Project Office           Summary   (APS)

Report run on:                 January 14, 2003 3:18 PM                                                Page 2

                                               **** ATC Information ****
     Ate      Atc Rank    Atcdesc




                                  ****    Facility/Location Information ****
  Code     Pacilitydese ----                                                                Location
                                                          ____                              Location




                                         ****Finding Information        * Bud Mt Dept      Dept         Dept
 Find#                   Title                   IYe     Amount     Yra I    Poe   Poe     Amount       Date



                                                 Audit Objective

     Audit Number:       A03FFDD7                            Objective Date: 12-NOV-02
     Title:    FMFIA FY 2002

     Objective Text:
     TO REVIEW AND EVALUATE THE DEPARTMENT'S FMFIA REPORTING PROCESS
     AND PROVIDE REASONABLE ASSURANCE THAT THE ELEMENTS REVIEWED HAVE
    ADEQUATE SYSTEMS OF MANAGEMENT CONTROL AND THAT THEIR ASSURANCE
    MEMORANDA REASONABLY REPRESENT THE RESULTS OF THESE AND OTHER
    APPLICABLE EVALUATIONS.


                                               Audit Report Summary

  Audit No: A03FF007                Rpt Summary Date:        4-JAN-03
  Title:      MFIA FY 2002

  Report Summary Text:
            BASED ON OUR LIMITED REVIEW, WE DETERMINED THAT PROGRAM ELEMENTS GENERALLY
            CONFORMED WITH REQUIREMENTS OF THE DEPARTMENT'S MANAGEMENT CONTROL
                                                                               PROGRAM.
            HOWEVER, OUR REVIEW IDENTIFIED SEVERAL PROCEDURAL PROBLEMS REGARDING
                                                                                 SUBMISSION OF
            ASSURANCE MEMORANDA.  AS IN PREVIOUS YEARS, A NUMBER OF HEADQUARTERS AND FIELD
            ASSURANCE MEMORANDA WERE NOT SUBMITTED ON TIME. WE ALSO OBSERVED
                                                                             THAT THE NATIONAL
             UCLEAR SECURITY ADMINISTRATION'S FY 2002 ASSURANCE MEMORANDUM DID NOT
                                                                                   INCLUDE
            DETAILED ACTION PLANS FOR IDENTIFYING REPORTABLE PROBLEMS.  THE LACK OF TIMELY
            REPORTING AND CORRECTIVE ACTION PLANS COULD AFFECT THE SECRETARY'S ABILITY
                                                                                        TO
            REPORT THE STATUS OF THE DEPARTMENT'S MANAGEMENT CONTROL PROGRAM
                                                                             TO THE PRESIDENT
            %ND TO CONGRESS.
01/16/03   09:35 FAX.301 903 4656               CAPITAL REGION                 -,FORS FIVEA           gj007




                                                                                              Attachment 4
                             AUDIT DATABASE INFORMATION SHEET


       1. Project No.: A03FF007

       2. Title of Audit: Federal Managers' Financial Integrity Act. Audit Report

       3. Report No./Date: OAS-L-03-05/January 10, 2003

       4. Management Challenge Area: No specific Area. Applies to all Management Challenges

       5. Presidential Mgmt Initiative: No specific Initiative. Applies to all Presidential Management
          Initiatives

       6. Secretary Priority/Initiative: No specific Priority/Initiative. Applies to all Secretary
          Priorities/Initiatives.

       7. Program Code: CR

       8. Location/Sites: No specific location/site. Applies to all Headquarters Offices and
                                                                                             field sites.
      9. Finding Summary:

              No findings. This was a Letter Report.

       10. Keywords:

                          Financial
                          FMFIA
                          control
                          Action Plan
                          Assurance Memo
